               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




           Processes and Procedures
            Over Improper Payments

                       Audit Report




                                              October 22, 2013

Report Number FT-AR-14-001
                                                                      October 22, 2013

                                                         Processes and Procedures
                                                           Over Improper Payments

                                                        Report Number FT-AR-14-001



BACKGROUND:
Improper payments are payments that         WHAT THE OIG FOUND:
should not have been made or were           The Postal Service uses several
made in an incorrect amount. Congress       elements, such as scorecards and
passed several laws over the past few       Sarbanes-Oxley Act controls, to identify,
years to elevate improper payments in       track, reduce, and recapture improper
the federal government to the same          payments. However, management could
level of importance as they are in the      enhance its controls by considering best
private sector. As a result, federal        practices identified during our
agencies have implemented programs          benchmarking efforts, including using
to identify, track, reduce, report, and     data mining to implement a continuous
recapture improper payments.                monitoring program over improper
                                            payments. During this time of financial
The U.S. Postal Service is not required     uncertainty and requested legislative
by law to implement such programs but,      relief, the Postal Service’s reputation
like most private organizations, is         with Congress and other stakeholders
required to follow the Sarbanes-Oxley       could be negatively impacted if it does
Act and generally accepted accounting       not enhance controls in this area.
principles.                                 Further, management does not have a
                                            process established to fully monitor and
In the private sector, improper payments    pursue restitutions and recoveries of
threaten profitability. In the federal      nearly $9 million settled by federal
sector, agencies lose billions of dollars   courts. Of this amount, we considered
in program funds. The U.S. Postal           about $1.2 million as monetary impact.
Service Office of Inspector General         State and local settlements may offer
identified about $203 million in improper   additional revenue-collecting
payments during fiscal years 2012 and       opportunities.
2011 that were recoverable and
available for other purposes.               WHAT THE OIG RECOMMENDED:
                                            We recommended management use
Our audit objective was to determine        best practices, including data mining, to
whether the Postal Service could            implement a continuous monitoring
enhance its procedures and processes        program over improper payments and
that identify, track, reduce, and           implement a process to monitor and
recapture improper payments.                collect court-ordered payments.

                                            Link to review the entire report
October 22, 2013

MEMORANDUM FOR:            JOSEPH CORBETT
                           EXECUTIVE VICE PRESIDENT AND
                            CHIEF FINANCIAL OFFICER

                           TIMOTHY F. O’REILLY
                           VICE PRESIDENT, CONTROLLER




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Processes and Procedures Over Improper
                           Payments (Report Number FT-AR-14-001)

This report presents the results of our audit of Processes and Procedures Over
Improper Payments (Project Number 11BG017FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Denice M. Millett, director,
Finance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Processes and Procedures Over Improper Payments                                                                                 FT-AR-14-001




                                                    TABLE OF CONTENTS

Introduction.................................................................................................................................... 1

Conclusion ..................................................................................................................................... 2

A Continuous Monitoring Approach to Payments Management........................................... 2

Monitoring Court-Ordered Payments ........................................................................................ 6

Recommendations ....................................................................................................................... 8

Management’s Comments .......................................................................................................... 8

Evaluation of Management’s Comments.................................................................................. 9

Appendix A: Additional Information ......................................................................................... 11

   Background ............................................................................................................................. 11

   Prior Audit Coverage ............................................................................................................. 14

Appendix B: Monetary and Other Impacts ............................................................................. 15

Appendix C. Management’s Comments ................................................................................. 16
Strategic Approach to Managing Improper Payments                                                   FT-AR-14-001



Introduction

This report presents the results of our audit of processes and procedures over improper
payments1 (Project Number 11BG017FF00). Our audit objective was to determine
whether the U.S. Postal Service could enhance its processes and procedures that
identify, track, reduce, and recapture improper payments. The audit focused on the
Postal Service’s efforts to pay the right persons or organizations in the right amounts for
the right goods and services. This self-initiated audit addresses financial and strategic
risk. See Appendix A for additional information about this audit.

Improper payments occur due to inadequate recordkeeping, inaccurate program
eligibility determinations, inadvertent processing errors, untimely and unreliable
information to confirm payment accuracy, or fraud. These widespread problems are
receiving increased attention by both the federal and private sectors. Improper
payments in the government do not always represent an actual loss, but when they do,
they have the effect of reducing funds for federal programs. In the private sector,
improper payments threaten profitability.

Congress passed improper payment laws2 to ensure payments are made to the right
individuals and organizations in the right amounts for the right goods and services, as
well as to elevate their importance in the federal government to the same level as they
are in the private sector. Over the past several years, federal executive agencies have,
by law, implemented programs to identify, track, reduce, report, and recapture improper
payments. While the improper payment laws do not apply to the Postal Service, large
private sector companies have processes and procedures in place to manage and
monitor improper payments on a strategic level.

The private sector is engaged in addressing improper payments by using data mining3
to implement continuous monitoring programs.4 Based on the organizations reviewed,
the savings identified from the reduction in improper payments exceeded the cost of
implementing these continuous monitoring prevention programs. As a result, private
sector organizations and federal executive agencies now recognize the risk of improper
payments and strategically plan for their reduction.
1
  Payments that should not have been made or that were made in an incorrect amount under statutory, contractual,
administrative or other legally applicable requirements. They include payments that do not account for discounts,
duplicate payments, payments for goods and services not received, and payments supported by insufficient
documentation or for which there is no documentation. They include the amount over or under paid – not the total
amount – unless the total was paid improperly, and can include future payments.
2
  Improper Payments Information Act (IPIA) of 2002, Public Law 107-300, November 26, 2002, and Improper
Payments Elimination and Recovery Act (IPERA) of 2010, Public Law 111-204, July 22, 2010. The Improper
Payments Elimination and Recovery Improvement Act (IPERIA) of 2012, Public Law 112-248, was signed into law on
January 10, 2013. The act includes provisions that strengthen estimates of improper payments and mandates a
government-wide "Do Not Pay List."
3
  Data mining analyzes large volumes of existing data to discover patterns, trends, and anomalies.
4
  Continuous monitoring uses software technologies to test transactions close to the time they occur, test all
transactions against a comprehensive range of control rules to ensure they are in compliance, and identify any
erroneous or fraudulent transactions.
                                                           1
                                                 Restricted Information
Processes and Procedures Over Improper Payments                                                        FT-AR-14-001




The U.S. Office of Management and Budget (OMB), from federal agency-reported data,
noted the rate of improper payments in the federal government for fiscal year (FY) 2012
was 4.3 percent, amounting to about $108 billion. Using this rate, the potential amount
for improper payments in the Postal Service, based on total expenses5 during FY 2012,
is $3.39 billion.

While performing the audit, we also analyzed procedures the U.S. Postal Inspection
Service (Inspection Service) and U.S. Postal Service Office of Inspector General (OIG)
use to account for court-ordered restitutions and recoveries. The U.S. Department of
Justice (DOJ) prepares spreadsheets of amounts owed and sends statements showing
restitutions and recoveries paid to the Postal Service.

Conclusion

The Postal Service has initiatives in place to identify, track, reduce, and recapture
improper payments, including scorecards and Sarbanes-Oxley Act (SOX) control
reviews.6 However, management could enhance its processes and procedures by using
best practices identified in our benchmarking efforts, including the use of data mining, to
implement a continuous monitoring program over improper payments. The Postal
Service’s reputation with Congress and other stakeholders could be negatively
impacted during this time of financial uncertainty and requested legislative relief if it
does not enhance controls in this area.

Further, management did not have a process established to fully monitor and proactively
pursue restitutions and recoveries settled by the courts. This occurred because the
Postal Service was not always aware of court-ordered payments until received or of
federal reports containing balances owed. Outstanding court-ordered restitutions and
recoveries totaled nearly $9 million as of December 10, 2012. Of the $9 million, about
$1.2 million relates to restitutions and recoveries resulting from Inspection Service
investigations and is considered monetary impact.

A Continuous Monitoring Approach to Payments Management

Management could enhance its current processes to identify, track, reduce, and
recapture improper payments by implementing a more robust continuous monitoring
program. Management noted that its current policies, procedures, and internal control
testing, along with supplementary initiatives, provide a process for managing improper
payments. However, we believe a more robust continuous monitoring program could
5
  Total operating expenses minus depreciation and amortization .
6
  The Postal Service is required to comply with certain sections of the SOX Act of 2002 as a result of the Postal
Accountability and Enhancement Act of 2006 (Postal Act of 2006). SOX Section 404 requires management to report on
its internal controls over financial reporting. Section 404 concentrates on testing key financial controls and risk of
material misstatement to the financial statements. It also evaluates whether controls are adequately designed to provide
reasonable assurance of preventing or detecting a material financial error and whether such controls are operating as
intended.


                                                          2
Processes and Procedures Over Improper Payments                                                       FT-AR-14-001



provide management the information it needs to identify the magnitude of improper
payments and the overall effectiveness of current initiatives. Current initiatives already
performed by the Postal Service, along with the availability of results from OIG audits
and investigations that identify improper payments, provide information to assist in
developing a continuous monitoring program. Table 1 identifies examples of
supplementary initiatives performed by the Postal Service.

                        Table 1. Examples of Supplementary Initiatives

             Projects                           Description                             Example
    San Mateo Accounting                Accounting Services                   Duplicate invoice review
    Service Center (ASC)                tracks and responds to                (recently updated by a
    Monitoring Accounting               specific metrics on                   Lean Six Sigma (LSS)
    Reporting Trends System             payment trends.                       project).
    Postal Service Controller           Controller issues monthly             Monitor and increase the
    Council National Scorecard          scorecards that identify              amount of accounts
                                        Postal Service area                   receivable collected.
                                        financial goals, some of
                                        which address improper
                                        payments.
    Web Box Activity Tracking           LSS tracking system that              Allows for the posting of
    Systems                             assists in the resolution of          payments and refunds,
                                        revenue deficiencies.                 generates reports for
                                                                              purposes of review.
    Tangoe (formerly Profitline)        Contractors manage                    Report and control
    & Energy United                     telecommunication and                 improper payments.
                                        utility invoices.
    Credit Memo7 Project                LSS project that improves             Generates credit memos
                                        the credit memo process               to increase collection and
                                        for highway contractors.              streamlines credit memo
                                                                              process.
Source: Postal Service SOX update, May 2012, and other internal documents .


The Postal Service’s control framework8 identifies internal controls for SOX testing by
setting a threshold that determines which accounts and processes will be considered for
testing. That framework focuses on the setting of financial reporting objectives to attain
reasonable assurance that the financial statements are free from material
misstatements.



7
  A memorandum issued to an account that provides for a refund or reduction of a charge, especially one posted to a
customer's account.
8
  Elements of the Committee of Sponsoring Organization (COSO) of the Treadway Commission, used by the Postal
Service, form a recognized control framework for audits of financial statements as well as internal control over
financial reporting.


                                                         3
Processes and Procedures Over Improper Payments                                                      FT-AR-14-001



However, the internal control testing performed by SOX cannot alone fully address
improper payments because:

     The testing threshold established by the Postal Service to determine its SOX scope
      in FY 2012 was $58.5 million, which would not necessarily capture potential
      improper payments resulting from accounts and processes below this threshold.

     A SOX program can be effective without always addressing or capturing improper
      payments. This occurs because SOX focuses on financial reporting objectives and
      controls and not operations or compliance objectives and controls.

     To determine the impact of errors or deficiencies to misstate the financial
      statements, management set the SOX materiality threshold for FY 2012 at
      $195 million. Potential improper payments below this threshold may be excluded
      from coverage by the SOX program.

Not all improper payments represent a loss. Many improper payments are labeled
improper because documentation to confirm payment accuracy is missing or
unavailable and requires further scrutiny.9 However, all improper payments, whether
recoverable or not, place assets at risk for loss, jeopardize the integrity of the Postal
Service, and compromise the trust of its stakeholders.

The OIG previously reported recoverable transactions meeting the definition of improper
payments from audits and investigations conducted in FYs 2012 and 2011 as shown in
Table 2.

          Table 2. Recoverable Improper Payment Transactions Found by OIG

                                             FY 2012                  FY 2011               Both Years
        Recoverable Costs10                (In Millions)            (In Millions)           (In Millions)
    Audits - Questioned Costs11                              –                $ 54                    $ 54
    Office of Investigation
    Cases - Restitutions and                              $70                   $ 79                    $149
    Recoveries
    Total                                                 $70                   $133                    $203
Source: FY 2011 and 2012 OIG Semiannual Reports to Congress (SARCs) and ancillary support.




9
  Without required documentation, management does not have the information to determine whether a payment was
accurate, necessary, or reasonable. As a result, fraud, waste, and abuse may go undetected or timely recovery
opportunities could be lost.
10
   Costs that can be reclaimed. Examples include fees that should have been charged but were not or contract costs
that were found to be improperly charged.
11
   A cost that is unnecessary, unreasonable, unsupported or an alleged violation of law, regulation or contract.


                                                        4
Processes and Procedures Over Improper Payments                                                    FT-AR-14-001



Improper payments have received increased attention not only in the federal
government but also in the private sector. Beyond the financial risks addressed by SOX,
private sector organizations consider additional activities when managing risk. An older
but relevant study of both public and private sector organizations12 highlighted that the
reduction of improper payments requires a strategy appropriate to the organization and
its particular risks.

Continuous monitoring efforts provide real-time data and ongoing assurance to the
private and public sectors on an immediate, time-driven basis. Continuous monitoring
includes a data mining component that analyzes large volumes of existing data to
discover patterns, trends, and anomalies; and illustrates the value of using preventive
methods to address improper payments. For example, three private sector companies
have implemented an array of continuous monitoring software solutions that extend
across their organizations.

    Telus Communication13 automated the review of all its payment transactions and
     increased the effectiveness of its payables controls. This monitoring solution
     resulted in the identification of duplicate payments totaling five times the total cost of
     implementing the continuous monitoring solution.

    Quality, Value, and Convenience (QVC)14 implemented continuous monitoring
     software that enabled them to take a proactive and preventive role, reducing the
     opportunity for fraud, duplicates, and other vendor payment errors. QVC was able to
     pay back the initial software investment within the first month of use.

    A large Forbes Top 20 privately held corporation recently quadrupled its data mining
     efforts to address improper payments, identifying available savings.

Working with the Postal Service to identify key risks, the OIG has embarked on several
initiatives to promote the use of data mining and support the mission of investigations
and audits. For example:

    The OIG uses data mining to identify high-risk workers’ compensation claims. The
     data has allowed agents to bring investigations to a successful resolution. OIG
     investigators initiated 102 cases using data from the Claimant Risk Analysis and
     Provider Risk Analysis Models that resulted in $9.5 million in recoveries,
     restitutions, and workers’ compensation payments.

    The Contract Fraud Model scores open and closed contracts to discover unusual
     patterns in contract growth, payment irregularities, cost outliers, and other anomalies
     for further analysis of improper or suspicious payments.

12
   Government Accountability Office (GAO) report, Strategies to Manage Improper Payments, Learning from Pub lic
and Private Sector Organizations (Report Number GAO-02-69G, dated October 2001).
13
   A leading telecommunications company with $10.4 billion in annual revenue (Canadian dollars) as of 2011.
14
   A shopping retailer with 2011 consolidated revenue of $8.3 b illion.


                                                        5
Processes and Procedures Over Improper Payments                                                           FT-AR-14-001




The Postal Service uses continuous monitoring techniques through its scorecards (as
discussed in Table1); however, the information is prepared monthly. The OIG models
provide the Postal Service an opportunity to enhance the models to implement a robust
continuous monitoring program over improper payments. Using real-time, continuous
monitoring, the Postal Service could intensify its efforts to reduce fraud and other
payment errors by building on its current work and strategies from private and public
sector organizations. By benchmarking against organizations that have established
successful programs to address improper payments, the Postal Service can effectively
leverage these measures.

The Postal Service is not required by law to implement a program to identify, track,
reduce, report, and recapture improper payments, but, like most private organizations,
is required to follow SOX and generally accepted accounting principles. Without a focus
on improper payments, the opportunity to detect fraud, waste, and abuse is not as
comprehensive as it could be. Improper payments threaten profitability, which is a vital
concern to the Postal Service because of repeated losses in recent years. 15 The chief
financial officer of the Postal Service shared a similar concern by emphasizing the need
for “prudent management of . . . financial resources.”16 Further, as an important
segment of the shipping and mailing economy and a key component of the nation’s
communications infrastructure, the Postal Service should exercise prudence and
accountability when making financial decisions. By implementing a continuous
monitoring program that addresses improper payments, the Postal Service can further
strengthen its internal controls over improper payments beyond the initiatives already in
place.

Monitoring Court-Ordered Payments

Management did not have a process established to fully monitor and proactively pursue
restitutions and recoveries settled by the courts. This occurred because the Postal
Service was not always aware of these court-ordered payments until received at the
ASC.17 In addition, management was not aware that a report containing the outstanding
balances of improper payments18 for federal cases is available from the DOJ.19 State and
local cases are handled by the jurisdiction overseeing the litigation and the balances of
court-ordered restitutions and recoveries must be obtained from individual jurisdictions.

15
   As of July 2009 and into 2011, the GAO added the Postal Service's financial condition to the list of high -risk areas
needing attention by Congress and the executive branch to achieve broad-based restructuring; High-Risk Series An
Update (Report Number GAO-11-278, dated February 16, 2011).
16
   Letter to Postal Career Executive Service Executives, Fiscal Responsibility and Accountab ility, dated
April 27, 2012.
17
   Electronic payments are remitted directly to the courts and transmitted to the Postal Service by means of the
U.S. Treasury Intra-governmental Payment and Collection System, which is facilitated by the DOJ.
18
   A transaction that should not have been made or one resulting from fraud is con sidered an improper payment.
19
   The DOJ currently provides payment statements to the Postal Service. The statements do not provide outstanding
balances. The DOJ informed the OIG that cumulative reports, with balances , can be requested at no additional cost.
The DOJ retains a portion of all receipts transmitted for their services.


                                                           6
Processes and Procedures Over Improper Payments                                                       FT-AR-14-001



The Inspection Service, the OIG, and other authorities refer criminal and civil cases to the
U.S. Attorney for litigation and potential restitutions and recoveries; however, the Postal
Service is not always aware of the case outcomes. As part of an established process, the
OIG will provide court-ordered settlement documents to the Postal Service when received
from the courts. The Postal Service should similarly work with the Inspection Service and
state and local jurisdictions to obtain similar documents so they can effectively and
efficiently monitor court-ordered payments. State and local settlements may offer
additional revenue collection opportunities.

At our request, the DOJ provided the OIG with an electronic spreadsheet of court-
ordered restitutions and recoveries pertaining to federal cases. After eliminating
duplicate entries, our review identified over $9 million in restitutions and recoveries as of
December 10, 2012. The distribution of restitutions and recoveries is shown in Table 3.
Of the $9 million, about $1.2 million relates to restitutions and recoveries resulting from
Inspection Service investigations and is considered monetary impact. See Appendix B
for monetary impact.

                      Table 3. Distribution of Restitution and Recoveries

                                                                       Value of Case
                                                                Restitutions and Recoveries
                         Source                                          (In Millions)
           Inspection Service                                                            $1.2
           OIG Office of Investigation                                                    4.2
           Other20                                                                        3.7
            Total                                                                        $9.1
         Source: U.S. DOJ.


Postal Service Handbook F-16 cites federal law21 that places the responsibility with the
Postal Service for collecting, compromising, terminating, or suspending collection
actions on debts due. The same handbook states that when the Postal Service detects
an overpayment or an erroneous or improper payment, it must establish an account
receivable22 and follow the protocol under the suggested billing follow-up procedures.23
We believe the Postal Service should work with the OIG, Inspection Service, and state
and local jurisdictions to establish a process to account for, monitor, and collect, where
cost-beneficial, court-ordered payments.




20
   Value of cases listed on the DOJ report but not claimed by either the OIG or Inspection Service.
21
   Title 39 U.S.C. §401(8), 2008(c).
22
   Accounts receivable is a claim against a debtor for an uncollected amount.
23
   Handbook F-16, Accounts Receivab le, Sections 221.2, 342.11, and 431, dated February 1990.


                                                          7
Processes and Procedures Over Improper Payments                               FT-AR-14-001



Recommendations

We recommend the executive vice president and chief financial officer direct the vice
president, controller, to:

1. Use best practices, including data mining, in the implementation of a continuous
   monitoring program over improper payments.

We recommend the vice president, controller:

2. Implement a process to track and collect court-ordered restitutions and recoveries.

Management’s Comments

Management generally agreed with the findings and recommendation 1, partially agreed
with recommendation 2, and could not validate the monetary impact of $1.2 million.

Management agreed with the need to have processes and controls in place to detect,
prevent, and recapture improper payments but disagreed that management does not
use best practices of data mining and continuous monitoring to detect and prevent
improper payments. Additionally, management could not validate the monetary impact
as it was unclear how the information in the DOJ report can be used to quantify
amounts owed to the Postal Service based on information the OIG provided.

For recommendation 1, management stated they currently monitor payments and use
data mining tools to identify and prevent improper payments and continue to enhance
its processes. Management noted the recommendation is complete.

Management partially agreed with recommendation 2, citing that implementation would
involve a concerted effort between the OIG, Inspection Service, and other authorities.
Management targets implementation of corrective action by October 31, 2013.

Management also had specific concerns with figures used in the report. Specifically:

   The potential $3.39 billion of improper payments in the Postal Service was included
    without any data or reasoning to support the statement or the recoverable improper
    payments found by the OIG. Management added that using the amount the OIG
    reported as recoverable ($203 million) would represent one-tenth of 1 percent of the
    total operating expenses.

   Management cited concerns with the data presented in Table 2, questioning whether
    the improper payments should be those of the Department of Labor (DOL) rather
    than the Postal Service. Consequently, without additional details provided by the
    OIG, they are unsure what, if any, corrective action the Postal Service can take.



                                                  8
Processes and Procedures Over Improper Payments                               FT-AR-14-001



They reiterated that the Postal Service is not required to comply with the improper
payment acts.

See Appendix C for management's comments, in their entirety.

Evaluation of Management’s Comments

We do not consider management’s comments responsive to recommendation 1. We
recognize the Postal Service is not required to comply with federal improper payment
acts and uses scorecards and metrics (as noted in Table 1) to monitor some programs.
However, our report also identifies successful and cost-beneficial use of real-time
continuous monitoring used in the private sector to monitor their improper payments.
Further, subsequent to the issuance of the draft report, the OIG identified additional
instances of improper payments, including continuing to make contract payments after a
contract postal unit ceased operation, paying a travel voucher without authorization for
international travel, and paying incorrect labor rates on information system projects. As
a result, we continue to believe the Postal Service could benefit from reviewing federal
and private sector improper payment reduction activities to enhance its current
processes to identify, track, reduce, and recapture improper payments. It is
management’s responsibility, though, to assess risk and develop processes,
procedures, and controls to promptly prevent and detect unauthorized acquisition, use,
or disposition Postal Service assets. Consequently, we will not pursue audit resolution
of recommendation 1.

The OIG considers management's comments responsive to recommendation 2 and
corrective actions planned or in process should resolve the issues. As noted in the
report, the OIG is committed to working closely with the Postal Service by providing
court-ordered settlement documents to the Postal Service when received from the
courts. The Postal Service will need to work with the Inspection Service and other
authorities as appropriate.

Regarding the $3.39 billion of potential improper payments used in the report, we
reported that the OMB noted an improper payment rate of 4.3 percent for all federal
executive agencies. Since the Postal Service did not have processes in place to identify
the magnitude of improper payments, we provided the $3.39 billion figure for
perspective and potential risk. The Postal Service has always requested that the OIG
provide perspective so they can better comprehend the importance of the issues
reported.

Similarly, the $203 million of improper payments the OIG provided as an example of
recoverable improper payments was compiled from past audits and investigations. It is
not an inclusive list of improper payments, just those that were recoverable by the
Postal Service. Improper payments also include other amounts that the Postal Serve
cannot fully determine to be recoverable (for example, payments made where



                                                  9
Processes and Procedures Over Improper Payments                                 FT-AR-14-001



supporting documentation is disposed of or not authorized). Those amounts were
excluded but can be significant.

Additionally, management had specific concerns regarding $76 million related to injury
compensation claims. Since the DOL administers the Office of Workers' Compensation
Program — including making payments to claimants, providers, and beneficiaries — the
Postal Service is not sure what corrective action it could take. We maintain that by
excluding the improper payment efforts of third parties who manage its funds, the Postal
Service would limit its ability to identify and prevent improper payments. Even though
the payments are outside its control, the Postal Service does have the control and
ability to implement processes and procedures to reduce the risk of actions that lead to
the improper payments.

Management stated they could not validate $1.2 million in monetary impact from the
information they had and the DOJ report provided by the OIG. The DOJ report showed
pending recoveries of over $34.1 million. After the audit, the Postal Service provided
support for receipt of a $25 million payment, leaving $9.1 million in pending restitution
and recoveries. We contacted the Postal Inspection Service and OIG Office of
Investigations to identify their cases in the DOJ report. The Postal Inspection Service
identified $1.2 million, as explained in our report, and only this amount was reported as
monetary impact. The OIG Office of Investigations confirmed $4.2 million, but we did not
claim this amount as monetary impact because it was claimed in prior years’ SARCs.
Our audit identified an additional $3.7 million in restitutions and recoveries that was not
corroborated by either group. Based on these points, management stated they will
request assistance from the OIG on how to interpret the DOJ report and incorporate it
into their recovery process.




                                                  10
Processes and Procedures Over Improper Payments                                                       FT-AR-14-001



                                 Appendix A: Additional Information

Background

Most challenges associated with payment processes in the public sector are similar to
those experienced in the private sector. One hurdle both sectors must first overcome is
determining the nature and magnitude of the problem. According to a study of
private sector companies,24 some major challenges facing payment processes in a
struggling economy are cost reduction and process improvement. The reduction of
improper payments requires an active strategy appropriate to the organization and its
particular risks. Managers then have the information they need in order to focus on
problems and improve internal controls. This does not mean processes lack controls,
but existing controls may need to be updated or policies and procedures added to
strengthen the control system to reduce improper payments.

SOX Section 404 requires certain entities to annually assess and report on the
effectiveness of their internal controls over financial reporting. SOX compliance provides
some protection that the right recipient is receiving the right payment for the ri ght reason
at the right time. The Postal Service is subject to Section 404 and adopted the COSO
framework25 for its compliance. In this context, COSO focuses on the setting of financial
reporting objectives to attain reasonable assurance that the financial statements are
free from material misstatement.26 However, given this inherent focus and program
threshold limitations, SOX testing cannot be relied on solely to identify improper
payments.

Under federal law,27 federal executive agencies have implemented a program to
identify, track, reduce, report, and recapture improper payments. These agencies are
required to perform four steps: risk assessment, statistical sampling, corrective actions,
and reporting. These steps, along with recovery audits, have proven to be effective in
managing improper payments. The Postal Service is not required to comply with federal
improper payment laws; however, these laws provide a systematic and prescribed
approach for addressing improper payments.




24
   A Struggling Accounts Payab le Department Finds Success, dated April 20, 2010, posted on DocuVantage.
25
   COSO provides a recognized framework to help entities assess and enhance their internal control systems. Setting
objectives is a prerequisite under the framework and leads to an overall strategy that includes (1) Operations -
effectiveness and efficiency of operations, including performance and profitability goals; (2) Financial Reporting -
preparation of reliable published financial statements; and (3) Compliance - adherence to laws and regulations.
26
   Financial statement assertions support financial reporting objectives and include existence/occurrence,
completeness, rights and obligations, valuation or allocation, presentation, and disclosure.
27
   IPIA of 2002 Public Law 107-300, November 26, 2002; IPERA of 2010 Public Law 111-204, July 22, 2010, with
guidance from OMB issued in 2011 as Appendix C, Requirements for Effective Measurement and Remediation of
Improper Payments, to OMB Circular A-123, Management's Responsibility for Internal Controls; and IPERIA of 2012,
Public Law 112-248 signed into law January 10, 2013, and includes provisions that strengthen estimates of improper
payments and mandates a government-wide "Do Not Pay List."


                                                        11
Processes and Procedures Over Improper Payments                                                       FT-AR-14-001



Objective, Scope, and Methodology

Our audit objective was to determine whether the Postal Service could enhance its
procedures and processes that identify, track, reduce, and recapture improper
payments. To accomplish our objective, we reviewed federal guidance on payment
management, interviewed key Postal Service personnel, and benchmarked private
organizations and federal executive agencies to determine ways the Postal Service
might improve its efforts to pay the right entities in the right amounts for the right goods
and services.

As part of our benchmarking, we focused our efforts on agencies most comparable to
the Postal Service. We based the selection of agencies on guidance prepared by OMB
on the effective measurement and remediation of improper payments and on internal
controls over financial reporting, which was revised to align with SOX. We also
interviewed personnel and OIGs at the following agencies:

      U.S. Agency for International Development.
      Department of Defense.
      Department of Health and Human Service.

We conducted interviews with federal agencies responsible for the implementation or
oversight of improper payment compliance to better understand the processes,
challenges, and lessons learned. Those agencies included the OMB, responsible for
implementing guidance covering improper payments, and the GAO. The GAO reports
on the status of federal executive agencies’ compliance with improper payment
legislation.

We researched private sector organizations to gauge their improper payment efforts
and contacted OIG personnel to gain an understanding of data mining initiatives used to
develop continuous monitoring models. Additionally, we had discussions with the
Postal Service’s independent public accounting firm to compare the Postal Service's
efforts to address improper payments with those of private sector entities.

We interviewed Postal Service personnel to determine what processes and procedures
are in place to track, identify, reduce, and recapture improper payments. We reviewed
Postal Service accounts receivable and accounts payable, and supply management’s
policies to gain an understanding of the accounting and contracting procedures
surrounding payments.

We contacted the DOJ to gain an understanding of their role in restitution and recovery
efforts on behalf of federal agencies.28 The DOJ prepares statements showing
restitutions and recoveries paid to federal agencies and spreadsheets of amounts owed
to federal agencies. The DOJ provided electronic spreadsheets to the OIG of court-

28
     A transaction that should not have been made or one resulting from fraud is considered an improper payment.


                                                          12
Processes and Procedures Over Improper Payments                                                   FT-AR-14-001



ordered restitutions and recoveries for review. We then met with OIG investigative and
legal personnel and the Inspection Service to gain an understanding of what efforts are
taken to report and recapture restitutions and recoveries arising from fraudulent criminal
and civil acts.

We analyzed four SARCs29 to identify potential improper payments. The identified
amounts provide a presumption of improper payments discovered in FYs 2012 and
2011. We focused on recoverable costs in the categories of questioned costs and
restitution and recoveries. The questioned cost category aligns itself with the definition
of improper payments as a cost that is unnecessary, unreasonable, unsupported, or an
alleged violation of law, regulation or contract and may or may not necessarily be
indicative of a direct financial loss to the Postal Service. We also reviewed the SARCs
of the agencies we benchmarked against to evaluate their findings and
recommendations applicable to improper payments.

We conducted this performance audit from February 2012 through October 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on July 31, 2013, and included their
comments where appropriate.

The DOJ provided the OIG with an electronic spreadsheet of outstanding court-ordered
restitutions and recoveries. We assessed the reliability of that data by interviewing
agency officials knowledgeable about the data. We also determined
computer-generated data, obtained from Postal Service OIG and agency personnel, to
be reliable based on interviews with individuals knowledgeable about the data and
computer systems. As a result, we determined that the data were sufficiently reliable for
the purposes of this report.




29
  For the periods October 1, 2010-March 31, 2011; April 1-September 30, 2011; October 1, 2011-March 31, 2012;
and April 1-September 30, 2012.


                                                      13
Processes and Procedures Over Improper Payments                            FT-AR-14-001




Prior Audit Coverage

The OIG issued the Purchasing Compliance and Imprudent Purchases Follow-Up Audit,
(Report Number FF-AR-11-010, dated June 21, 2011) and found that the Postal Service
improved the effectiveness of local purchasing activities and reduced spending using
the SmartPay program since a previous audit; however, the audit identified purchases
that did not contain a business meal justification or were not properly authorized,
recognition gifts that were not entered into the eAwards system, employees in one
district continuing to make imprudent purchases, and an opportunity to further improve
the effectiveness of the Purchasing Shared Services Centers. Management generally
agreed with the findings, recommendations, and monetary impact in the report.




                                                  14
Processes and Procedures Over Improper Payments                                                        FT-AR-14-001



                             Appendix B: Monetary and Other Impacts

                                               Monetary Impact


         Recommendation                              Impact Category                          Amount
               2                                    Questioned Costs30                       $1,241,071

The DOJ provided payment statements showing remittances to the Postal Service, but
the statements did not provide outstanding balances. Upon further inquiry, the DOJ
informed us that cumulative reports with balances can be requested at no additional
cost. At our request, the DOJ provided an electronic spreadsheet of court-ordered
restitutions and recoveries of over $9 million. The distribution of restitutions and
recoveries owed the Postal Service, based on efforts of the Inspection Service, was at
least $1.2 million. The OIG Office of Investigations confirmed at least $4.2 million. We
did not claim this amount as monetary impact because it was claimed in prior year
SARCs. Our audit identified an additional $3.7 million in restitutions and recoveries that
was not corroborated by either group.

                                                  Other Impact

          Recommendation                              Impact Category                           Amount
                1                                    Goodwill Branding31                         None




30
  A cost that is unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation or contract.
31
  An adverse impact on goodwill is an actual event/problem that harms the Postal Service's reputation or a potential
problem that could negatively impact the Postal Service's brand n ame.


                                                         15
Processes and Procedures Over Improper Payments              FT-AR-14-001



                         Appendix C. Management’s Comments




                                                  16
Processes and Procedures Over Improper Payments        FT-AR-14-001




                                                  17
Processes and Procedures Over Improper Payments        FT-AR-14-001




                                                  18
